J

2311 Douglas Street
Omaha, Nebraska 68102-1214
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

vC'OCKLE

E-Mail Address:
contact@cocklelegalbriefs.com

Briefs
list, up3

/

Web Site
www.cocklelegalbriefs.com
No.
BARBARA MURRAY,
Petitioner,
v.
ELIZABETH A. FRY as the Executrix of the Estate
of Fry, James E. and The Estate of James E. Fry
(Correct name The Estate of James W. Fry),
Respondents.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 17th day of December, 2020, send
out from Omaha, NE 1 package(s) containing 1 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:
SEE ATTACHED

To be filed for:
BARBARA MURRAY
Pro Se
5 Shelia Lane
Westport, CT 06880
203-979-1153

RECEIVED
DEC 2 2 2020

Subscribed and sworn to before me this 17th day of December, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

A GENERAL HOTARY-State of Ne&raska
PI
RENEE J. GOSS

wSglst^Ss My Comm. Exp. September 5,2023
Notary Public v

Affiant
40459

Mark Katz
Law Office of Mark Katz
196 North Street
Stamford, CT 06901
203-357-9252
Counsel for Respondents

